SUPREME COURT OF THE UNITED STATES
Case No. 19X
ARRIS INTERNATIONAL LIMITED
Petitioner,
v.

CHANBOND, LLC,
AND
ANDREI IANCU, UNDER SECRETARY OF COMMERCE FOR
INTELLECTUAL PROPERTY AND DIRECTOR OF THE UNITED
STATES PATENT AND TRADEMARK OFFICE
Respondents.
X
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h),
I certify that the document contains 6.876 words, excluding the
parts of the document that are exempted by Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the foregoing is
true and correct.

Executed on July 25, 2019

Candice Best
Sworn to and subscribed before me
this 25th day of Jmlyx2019

Mas Melendez
Notary Rublic State of New York
No. 24-^799661
Qualified in Kings County
Commission Expires Aug. 31, 2021
#289921

